                                                                             Report No. DODIG-2014-070




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              M AY 6 , 2 0 1 4




                     Improvements Needed for
                     Triannual Review Process at
                     Norfolk Ship Support Activity




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                                        Fraud, Waste & Abuse

                                        HOTLINE
                                        Department of Defense
                                        d o d i g. m i l / h o t l i n e



For more information about whistleblower protection, please see the inside back cover.
                                                Results in Brief
                                                Improvements Needed for Triannual Review
                                                Process at Norfolk Ship Support Activity


May 6, 2014                                                             Finding Continued

Objective                                                               Budgetary Resources were stated correctly and did not demonstrate
                                                                        audit readiness.
Our objective was to determine the accuracy of
unliquidated          obligations    (ULOs)     at    the    Norfolk    Recommendations
Ship Support Activity (NSSA) in Norfolk, Virginia.
Specifically we assessed whether ULOs certified                         The Assistant Secretary of the Navy (Financial Management and
during        the     Triannual      Review      (TAR)       process    Comptroller), should:
were accurate.                                                             •	 develop procedures to address the lack of response and support
                                                                               from stakeholders,
Finding                                                                    •	 provide training for all personnel who perform the TAR, and

Of the 75 ULOs we reviewed and NSSA certified as                           •	 implement a quality assurance review to evaluate the
valid during the January and May 2013 TAR periods                              effectiveness of the TAR process.
we found:
                                                                        The Commander, U.S. Fleet Forces Command, should perform a quality
      •	 2 valid ULOs, valued at $3.9 million,
                                                                        assurance review that validates subordinate activity TAR submissions and
      •	 16 invalid ULOs, valued at $4.5 million, and                   notify appropriate chain of command when personnel at subordinate or
      •	 57 ULOs, valued at $24.6 million, of unknown                   external activities do not respond to Triannual Review requests.
          validity.                                                     The Executive Director, NSSA, should:

This occurred because:                                                     •	 determine whether the ULOs in Appendix B are valid or should
                                                                               be deobligated,
      •	 personnel who validated ULOs did not
          understand their roles and responsibilities or                   •	 develop and implement procedures to gather and maintain
          receive guidance,                                                    supporting documentation,

      •	 the NSSA personnel were was unaware of                            •	 annotate on the confirmation statement how many ULOs were
          reporting exceptions on the confirmation                             not reviewed, and
          statements, and                                                  •	 notify the chain of command when personnel do not respond
      •	 quality reviews were not in place to ensure                           to TAR requests.
          funds holders perform the TAR.

As a result, NSSA can deobligate $5 million,1 and
                                                                        Management Comments and
its     ULO     financial     amounts       were      unsupported.      Our Response
Additionally, the TAR did not provide reasonable
assurance that amounts on the Navy Statement of                         Comments from the Assistant Secretary of the Navy (Financial Management
                                                                        and Comptroller) were partially responsive. As a result of comments from
                                                                        the Commander, U.S. Fleet Forces Command, we revised Recommendations
	1	
      During the course of the audit, NSSA obtained supporting          2.a and 2.b. Comments from the Commander, Naval Sea Systems Command,
      documents for 17 of the 73 ULOs and deobligated $4.8 million      on behalf of the Executive Director, NSSA were responsive. Please see the
      of the $5 million we identified. The remaining $230,000 could
      have been put to better use if deobligated in a prior period. 	   Recommendations Table on the back of this page.
  Visit us on the web at www.dodig.mil


                                                                                     Report No. DODIG-2014-070 (Project No. D2013-D000DE-0180.000) │ i
                   Recommendations Table
                                                                         Recommendations        No Additional
                                       Management                        Requiring Comment    Comments Required

                    Assistant Secretary of the Navy (Financial          1.a, 1.b             1.c
                    Management and Comptroller)

                    Commander, U.S. Fleet Forces Command                2.a, 2.b             None

                    Executive Director, Norfolk Ship Support Activity   None                 3.a, 3.b, 3.c

                   Please provide comments by June 5, 2014.




ii │ Report No. DODIG-2014-070 (Project No. D2013-D000DE-0180.000)
                                  INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500


                                                                                     May 6, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE COMPTROLLER)/CHIEF
               	 FINANCIAL OFFICER, DOD
               NAVAL INSPECTOR GENERAL

SUBJECT:	 Improvements Needed for Triannual Review Process at Norfolk Ship Support
          Activity (Report No. DODIG-2014-070)

We are providing this report for review and comment. The Norfolk Ship Support Activity
(NSSA) did not comply with DoD requirements when it reviewed unliquidated obligations
during the Triannual Review periods ending January and May 2013. NSSA inaccurately reported
73 unliquidated obligations, valued at $29 million. Of the  73  unliquidated obligations, 16 were
invalid, and we were unable to determine the validity of the other 57. During the course of the
audit, NSSA obtained supporting documents for 17 of the 73 ULOs and deobligated $4.8 million
of the $5 million we identified. The remaining $230,000 could have been put to better use if
deobligated in a prior period.  

We considered comments from the Assistant Secretary of the Navy (Financial Management
and Comptroller), Commander, U.S. Fleet Forces Command, and Commander, Naval Sea
Systems Command, when preparing the final report.  DoD Directive 7650.3 requires that
recommendations be resolved promptly. The comments provided on behalf of the Assistant
Secretary of the Navy (Financial Management and Comptroller) were partially responsive.
We request additional comments from the Assistant Secretary of the Navy (Financial
Management and Comptroller) on Recommendations 1.a and 1.b by June 5, 2014.  As a result
of management comments, we changed Recommendations 2.a and 2.b.  Therefore we request
that the Commander, U.S. Fleet Forces Command comment on Recommendations 2.a and 2.b
by June 5, 2014.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If
possible, send a PDF file containing your comments to audclev@dodig.mil.  Copies of the
management comments must contain the actual signature of the authorizing official.
We are unable to accept the /Signed/ symbol in place of the actual signature.  If you
arrange to send classified comments electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff.         Please direct questions to me at
(703) 601-5945 (DSN 664-5945).




	                                               Lorin T. Venable, CPA
                                                Assistant Inspector General
                                                Financial Management and Reporting

                                                                                   Report No. DODIG-2014-070 │ iii
                   Contents
                   Introduction
                   Objective__________________________________________________________________________________________1
                   Background_______________________________________________________________________________________1
                   Review of Internal Controls_____________________________________________________________________3

                   Finding. Improvements Needed to Controls Over
                      Unliquidated Obligations__________________________________________________4
                   Valid Obligations That Were Accurately Reported_ ___________________________________________4
                   Unliquidated Obligations Were Inaccurately Reported as Valid _____________________________5
                   Invalid Unliquidated Obligations Were Inaccurately Reported as Valid _____________________5
                   Unliquidated Obligations With Unknown Validity Reported as Valid _______________________6
                        Requests for Responses Went Unanswered_______________________________________________7
                        Supporting Documentation Insufficient___________________________________________________8
                   Lack of Due Diligence ___________________________________________________________________________8
                   Impact on Use of Funding and Financial Statements _________________________________________9
                   Management Actions__________________________________________________________________________ 10
                   Management Comments on the Finding and
                      Our Response______________________________________________________________________________ 10
                   Recommendations, Management Comments, and Our Response__________________________ 12
                   Revised Recommendations_ __________________________________________________________________ 12

                   Appendixes
                   Appendix A. Scope and Methodology_________________________________________________________ 18
                   	    Use of Computer-Processed Data _______________________________________________________ 19
                   	    Use of Technical Assistance_______________________________________________________________ 20
                   	    Prior Coverage _ ___________________________________________________________________________ 20
                   Appendix B. Unliquidated Obligations With Unknown Validity _ __________________________ 21




iv │ Report No. DODIG-2014-070
                                                                                                     Introduction



Management Comments
Assistant Secretary of the Navy (Financial Management and Comptroller)
    Comments__________________________________________________________________________________ 23
Commander, U.S. Fleet Forces Command
   Comments__________________________________________________________________________________ 26
Commander, Naval Sea Systems Command Comments_____________________________________ 29

Acronyms and Abbreviations______________________________________________ 35




                                                                                        Report No. DODIG-2014-070 │ v
                                                                                                                               Introduction




Introduction
Objective
Our objective was to determine the accuracy of unliquidated obligations (ULOs) at the
Norfolk Ship Support Activity in Norfolk, Virginia.  Specifically we assessed whether
ULOs certified during the Triannual Review (TAR) process were accurate.2


Background
The Norfolk Ship Support Activity (NSSA) was established in 2009 as an Echelon IV
command after the Mid-Atlantic Regional Maintenance Center was disestablished. It
is one of 23  activities comprising the budget submitting office (BSO) that reports
to the Norfolk Naval Shipyard and Regional Maintenance Centers, managed by the
U.S. Fleet Forces Command (USFFC) and operated by the Naval Sea Systems Command.
NSSA provides contract services for repairs, maintenance, and modernization of
surface ships.           It manages financial accounting, which includes budget execution,
accounting, payroll, and financial data analysis and reporting. NSSA primarily uses
the Standard Accounting and Reporting System (STARS) to accomplish its financial
management responsibilities.

DoD Regulation 7000.14-R, “DoD Financial Management Regulation” (DoD FMR),
volume 3, chapter 8, “Standards for Recording and Reviewing Commitments and
Obligations,” defines the TAR process as an internal control practice used to assess
whether obligations recorded are bona fide needs of the appropriations charged.
According to DoD FMR, volume 3, chapter 11, “Standards for Recording and Reviewing
Commitments and Obligations,” obligations are defined as “amounts of orders placed,
contracts awarded, services received, and similar transactions during an accounting
period that will require payment during the same, or a future, period.” An obligation
is considered “unliquidated” if it has not been fully paid off or adjusted by contract
modifications. According to the memorandum issued by the Deputy Chief Financial
Officer, Office of the Under Secretary of Defense, “Accounting Policy Update for
Triannual Review of Obligations and Unfilled Orders,” February 28, 2013, “the goal in
performing the TAR is to increase the Component’s ability to use available
appropriations before they expire and ensure remaining open obligations are
fairly stated and valid.” Furthermore, to support audit readiness, the TAR must be
adequately documented, and supporting documentation must be maintained for

	2	
      Our announced objective was to determine the accuracy of ULOs. Throughout the report, we use the term validity because
      we also considered the ongoing need for the ULOs.




                                                                                                                Report No. DODIG-2014-070 │ 1
Introduction



                  2 years after cancellation of the related appropriation.     The Assistant Secretary
                  of the Navy (Financial Management and Comptroller) (ASN[FM&C]) allows the
                  BSOs to determine how they accomplish the TAR.


                  Triannual Review Process
                  To accomplish the TAR, funds holders, with assistance from supporting accounting
                  offices and contracting and technical personnel (stakeholders), should review ULOs for
                  timeliness, accuracy, and completeness during each of the 4-month periods ending on
                  January 31, May 31, and September 30 of each fiscal year. In addition, funds holders
                  should review all obligations at least annually and initiate actions to resolve ULOs
                  as appropriate.    Obligations are considered dormant if no adjustments, contract
                  modifications, disbursements, or withdrawals occur for 120 days, or if contracts are
                  physically complete and for which the period of performance has expired.

                  The TAR begins when USFFC provides its activities, including NSSA, with a list
                  of direct and reimbursable ULOs equal to or greater than $50,000 and  120-days
                  dormant for each of the TAR periods.       USFFC extracts a list of ULOs from the
                  Command Financial Management System, which loads data from STARS.  NSSA
                  financial management personnel e-mail requests to personnel in either NSSA or
                  external stakeholders to review the ULOs for timeliness, accuracy, completeness,
                  and to assess whether there is an ongoing need for the obligations charged
                  to the appropriations.    If the ULOs are no longer needed, the funds should be
                  deobligated.   Funds holders are required to maintain sufficient documentation to
                  permit independent organizations to verify that the reviews were accomplished
                  as required for a period of 24 months following the completion of the review. This
                  documentation should show the level of review, determining factors, and resultant
                  actions reflecting the due diligence performed by the funds holder.        NSSA should
                  compile the results of the review, complete a formal signed confirmation statement
                  regarding the accuracy and completeness  of the recorded amounts, and send
                  the results of the TAR to USFFC.       USFFC combines the confirmation statement
                  from NSSA with the other activities in the BSO and provides the results to the
                  ASN(FM&C).      The ASN(FM&C) combines the confirmation statements from each
                  BSO and provides them to the Under Secretary of Defense (Comptroller)/Chief
                  Financial Officer, DoD.

                  For the TAR period ending January  31, 2013, USFFC provided NSSA with a sample
                  of  358  ULOs, valued at $93.7 million, for validation. USFFC provided NSSA with a




2 │ Report No. DODIG-2014-070
                                                                                                                              Introduction



complete list of all 3,058  ULOs, valued at $91.4 million,3 for the TAR period ending
May  31, 2013.             At the end of each of the January and May TAR periods, NSSA
confirmed that all ULOs were reviewed and valid.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
May  30,  2013, requires DoD organizations to implement a comprehensive system of
internal controls providing reasonable assurance programs are operating as intended
and to evaluate the effectiveness of the controls. We determined that internal control
weaknesses existed at USFFC and NSSA regarding the TAR process to validate the
continued need of ULOs. The Commander, USFFC, and Executive Director, NSSA, did
not adequately oversee the TAR process. NSSA did not receive or maintain adequate
documentation to support the ongoing need for the obligations. In addition, the NSSA
Financial Management Officer certified the TAR as valid even though the external
stakeholders for several ULOs did not provide adequate responses. We will provide a
copy of the report to the senior official responsible for internal controls in the
Department of the Navy.




	3	
      If ULOs are 120-days dormant in two or more of the TAR periods, they may be reviewed in more than one TAR period.




                                                                                                                 Report No. DODIG-2014-070 │ 3
Finding




                   Finding
                   Improvements Needed to Controls Over
                   Unliquidated Obligations
                   The NSSA Financial Management Officer certified ULOs that were invalid, not
                   reviewed, and not supported during the January and May 2013 TAR periods. Of the 75
                   certified ULOs reviewed, 2  ULOs, valued at  $3.9  million, were valid. Of the remaining
                   73  ULOs, the NSSA Financial Management Officer certified 16  invalid ULOs, valued
                   at $4.5 million, and 57 ULOs, valued at $24.6 million, without sufficient documentation
                   to support their validity. This occurred because the NSSA and external stakeholder
                   personnel who reviewed the ULOs did not understand their roles and responsibilities
                   during the TAR. The NSSA Financial Management Officer was unaware of the ability to
                   report exceptions on the confirmation statement regarding ULOs not reviewed during
                   the TAR periods. In addition, ASN(FM&C) did not develop procedures to perform
                   quality reviews to ensure performance of the TAR as required. As a result, NSSA
                   can deobligate $5 million,4 and its ULO financial amounts were unsupported.  The
                   TAR internal control did not provide reasonable assurance that amounts on the
                   Navy Statement of Budgetary Resources (SBR) were stated correctly and did not
                   demonstrate audit readiness.

                   	4	
                         During the course of the audit, NSSA obtained supporting documents for 17 of the 73 ULOs and deobligated $4.8 million of
                         the $5 million we identified. The remaining $230,000 could have been put to better use if deobligated in a prior period.




                  Valid Obligations That Were Accurately Reported
                  Of the 75 certified ULOs we nonstatistically sampled, the NSSA Financial Management
                  Officer accurately reported 2 ULOs, valued at $3.9 million, as valid on the confirmation
                  statement. According to DoD FMR volume 3, chapter 8, and a memorandum from
                  USFFC, ULOs are valid when documentation demonstrates that the goods and services
                  are outstanding and the funding level is sufficient to support the ongoing need for
                  the obligations. An external stakeholder provided documentation to NSSA during the
                  TAR that supported the amount and the ongoing need for funds for two valid ULOs.
                  For example, the supporting documentation for the ULOs regarding technical and
                  engineering support, contained billing history reports to support the amounts and
                  ongoing need for the ULOs.




4 │ Report No. DODIG-2014-070
                                                                                                Finding



Unliquidated Obligations Were Inaccurately
Reported as Valid
Of the remaining 73 ULOs, the NSSA Financial Management Officer certified
16  invalid ULOs, valued at  $4.5  million, and 57  ULOs with unknown validity, valued
at  $24.6 million, as valid on the confirmation statement.  If NSSA provided
documentation that supported that either the value reported on the TAR was
incorrect or there was no longer a need for the ULO, we considered a ULO invalid. We
also considered a ULO invalid when NSSA deobligated ULOs around the time of the
TAR period or during the audit and did not note exceptions for those ULOs on the
confirmation statement.

As part of the TAR process, NSSA personnel sent requests to stakeholders to
obtain the status of funds; however, in many cases they received no response.
Therefore, the stakeholders did not review those ULOs as required by DoD FMR
volume  3, chapter 8.      NSSA received a response for some ULOs; however the
documentation did not demonstrate that goods and services were outstanding or that
the funding level supported the ongoing need.


Invalid Unliquidated Obligations Were Inaccurately
Reported as Valid
The NSSA Financial Management Officer certified 16 ULOs, valued at  $4.5 million,
as valid on the January and May  2013 TAR confirmation statements, when in fact,
they were invalid. NSSA stakeholders did not respond for 7 of the 16  ULOs, valued
at  $3.4  million.   However, the NSSA Financial Management Officer certified these
seven ULOs as valid even though the stakeholders did not provide documentation
to support their validity. For example, NSSA reported a ULO for engineering services,
valued at $97,000, as valid on the January 2013 TAR.        However, the supporting
documentation showed that external stakeholders did not respond to NSSA’s data
request. As a result of our question on this ULO, NSSA contacted the contractor in
May 2013 to determine the status of the ULO.       The contractor indicated that the
contract was complete. Therefore on June  5, 2013, NSSA deobligated the remaining
ULO balance of $97,000.

In addition, NSSA personnel did not receive sufficient documentation to support
the validity of the remaining nine ULOs, valued at $1.1 million.     NSSA personnel
received responses from stakeholders for nine ULOs and reported the ULOs as valid.
However, the supporting documentation did not support the ULOs because it did not




                                                                             Report No. DODIG-2014-070 │ 5
Finding



                  demonstrate a continued need for the funds as required by DoD FMR volume 3,
                  chapter  8. For example, NSSA reported a ULO, valued at  $90,000, for ship repairs
                  as valid.        The external stakeholder provided an inconclusive response stating,
                  “all funds placed on contract.”      This response did not confirm the ongoing need
                  for the obligation.  The NSSA Financial Management Officer stated that NSSA
                  personnel did not make conclusions based on these types of responses but looked
                  for yes or no responses to whether the funds were needed. The NSSA personnel
                  did not follow up to request a clear answer with supporting documentation and
                  reported the ULO as valid. Again, based on our questions regarding this ULO, NSSA
                  personnel conducted additional research and identified a contract modification, dated
                  January  3, 2011, that decreased the obligation from $90,000  to  $0.  The ULO
                  amount of $90,000 was deobligated in May 2013.  This ULO was dormant
                  for over 2 years. Several other invalid ULOs also remained dormant and
                  reported on the Navy financial statements for extended periods.         See Table 1 for
                  the number and dormancy of invalid ULOs.

                  Table 1. Dormancy of Invalid Unliquidated Obligations for the January and
                  May 2013 Triannual Reviews

                                                       Number of Inactive           Value of Inactive
                           Dormancy Length               Invalid ULOs                 Invalid ULOs
                    4 months (120 days)                        6                      $ 2,900,000
                    through 1 year
                    1 through 2 years                          4                          430,000

                    2 through 3 years                          4                        1,100,000

                    3 through 4 years                          1                           55,000

                    Over 4 years                               1                           10,000

                      Total                                   16                      $ 4,495,000



                  Unliquidated Obligations With Unknown Validity
                  Reported as Valid
                  The NSSA Financial Management Officer certified 57 ULOs, valued at $24.6  million,
                  as valid on the January and May 2013 TAR statements without sufficient
                  documentation to support their validity.  Specifically, NSSA personnel did not
                  receive a response for their documentation request from external stakeholders for
                  45  ULOs, valued at  $16.1  million, for the May  2013 TAR. The supporting
                  documentation for 12  ULOs, valued at  $8.5  million, did not provide enough
                  information to show that they were valid.




6 │ Report No. DODIG-2014-070
                                                                                                                Finding



Requests for Responses Went Unanswered
For 45  unsupported ULOs, NSSA personnel sent requests to external stakeholders to
obtain the status of the funds available for the ULOs for review during the TAR. Even
                              though NSSA personnel did not receive a response for many
                                   of the items, the NSSA Financial Management Officer
          Even though                 completed the TAR confirmation statement and
       NSSA personnel did
                                        indicated on the form that the ULOs were reviewed
     not receive a response
   for many of the items, the            and valid.    For example, NSSA personnel sent a
  NSSA Financial Management              request for validation of a $523,000 ULO for a ship
   Officer completed the TAR             repair to points of contact in the NSSA contract
  confirmation statement and
   indicated…the ULOs were              department for the May  2013 TAR.               This ULO
       reviewed and valid.             had been dormant for 592 days at the time of the
                                    May  2013 TAR. The NSSA contract department did
                               not receive a response regarding the status of the ULO
for this item and noted that in the supporting documentation. However, the NSSA
Financial Management Officer signed the TAR confirmation statement, incorrectly
certifying that “adequate follow up was conducted on all dormant obligations over
120-days old to determine if the requirement is still valid.” See Table 2 for dormancy
of ULOs that lacked responses or support to determine validity.

Table 2. Dormancy of Unliquidated Obligations for Which the Validity Could Not Be
Determined for the January and May Triannual Reviews
                                      Number of ULOs with                Value of ULOs with
      Dormancy (Length)                Unknown Validity                  Unknown Validity
 4 months (120 Days)                             26                          $15,900,000
 through 1 year
 1 through 2 years                               21                            7,000,000

 2 through 3 years                                7                            1,600,000

 3 through 4 years                                1                               22,000

 Over 4 years                                     2                               70,000

   Total                                        57*                          $24,592,000

 * After the TAR, we obtained information and determined that 3 of the 57 ULOs were valid.


Because the external stakeholders did not respond to the NSSA request for
information, NSSA could not establish the validity of this ULO and others. Without
a supported response to the TAR, we could not determine the validity of the ULO.
Other activities under the USFFC BSO provided additional information, such as




                                                                                             Report No. DODIG-2014-070 │ 7
Finding



                  exception reports, regarding ULOs they were not able to review and the reasons
                  they could not review them.          NSSA did not provide exception reports with its
                  TAR certification. The NSSA Financial Management Officer should have indicated on
                  the TAR confirmation statement that the ULO was not reviewed and that the validity
                  could not be determined.


                  Supporting Documentation Insufficient
                  NSSA personnel received responses to the TAR request for 12 ULOs; however, the
                  supporting documentation accompanying the responses did not demonstrate a
                  continued need for the funds as required by DoD FMR volume 3, chapter 8. For
                  example, NSSA certified a ULO, valued at $550,000, for a ship repair that was reported
                  as valid on the January 2013 TAR. This ULO had been dormant for 617  days at the
                  time of the January 2013 TAR. The external stakeholder responded to the TAR and
                  provided supporting documentation. However, the documentation did not support
                  the ongoing need for the funds. In another example, NSSA reported a ULO, valued
                  at $8,000, also for ship repairs, as valid on the May 2013 TAR.       The contractors
                  responded, “Contract waiting for final invoice” on June 12, 2013.     However, there
                  was no documentation to support the contractor’s response or to demonstrate that
                  the external stakeholder reviewed the ULO or that there was still a need for the
                  funds.        NSSA personnel and its external stakeholders did not perform a complete
                  review in accordance with DoD FMR volume 3, chapter 8, nor did they provide reasonable
                  assurance that the obligations were auditable. The NSSA Financial Management Officer
                  should review the 54 ULOs for which the validity could not be determined and take
                  appropriate action to deobligate if necessary.


                  Lack of Due Diligence
                  When performing the TAR, NSSA personnel did not always receive sufficient
                  supporting documentation from stakeholders or maintain the documentation
                  to support that a ULO was valid.         This occurred because NSSA and stakeholder
                  personnel who validated ULOs did not understand their roles and responsibilities
                  during         the TAR.   NSSA personnel believed signing the confirmation statement
                  meant NSSA did everything it could to check the validity of the ULOs. The NSSA
                  Financial Management Officer certified the confirmation statement indicating
                  adequate follow up was performed to determine if the ULOs were still valid although
                  a significant portion of the ULOs were not supported as valid.        NSSA personnel
                  were unaware of their responsibility to report       exceptions with the confirmation
                  statement when stakeholders were unresponsive and a thorough review of ULOs




8 │ Report No. DODIG-2014-070
                                                                                                     Finding



was not performed during the TAR periods.            NSSA and its external stakeholders
should receive training on their TAR responsibilities. In addition, NSSA and external
stakeholders should perform due diligence in gathering and maintaining support
demonstrating the level of review determining factors and resultant actions for and
reviewing ULOs.  Furthermore, NSSA should develop and implement procedures to
gather documentation from the TAR that supports the validation of the ULO and
maintain the documentation for 24  months as required by DoD FMR volume  3,
chapter  8.  NSSA should include an exception report with the TAR confirmation
statement when adequate review is not performed.            The exception report should
include information such as ULOs not reviewed and stakeholders that are not
responsive to the TAR request.

In addition, ASN(FM&C) did not implement a review to ensure that the TAR
is performed and the results reported as required.             Additionally, there was no
consequence for external stakeholder personnel who did not respond to the
NSSA TAR requests.  ASN(FM&C) should determine accountability measures for
those external stakeholders that do not respond to TAR requests.  To provide
assurance to the BSO TAR confirmation statement, USFFC should perform a quality
assurance review of the results of subordinate activity submissions.


Impact on Use of Funding and Financial Statements
The lack of internal control increases the risk of invalid ULOs and decreases the
opportunity to put the funds to better use or return them to the Department of the
Treasury. If NSSA performed the TAR as required by the DoD FMR, NSSA would have
been able to recover the funds and put them to better use instead of just returning
them to the Department of the Treasury. For example, we reviewed two ULOs, valued
at  $230,000 that could have been put to better use if appropriate action was taken in
prior periods.

The Navy also relies on the TAR for SBR audit readiness.               The DoD Financial
Improvement and Audit Readiness Directorate defined key capabilities that
reporting entities must achieve and sustain to demonstrate SBR audit readiness,
including,   “Effective   Controls   Over    Recording   and    Maintaining   Obligations.”
Audit readiness is defined and measured by the ability of the reporting entity to
demonstrate that control activities for recording obligations are suitably designed
and operating effectively to provide reasonable assurance that the relevant financial
reporting objectives were achieved.         Invalid or inaccurately recorded obligations,
or dormant obligations that have not been removed, present risks to SBR audit




                                                                                  Report No. DODIG-2014-070 │ 9
Finding



                  readiness.  These risks can be decreased by ensuring that all obligations and
                  accruals are reviewed, and adjusted as necessary, at least three times per year,
                  as required by DoD FMR, volume 3, chapter 8. For the January and May 2013 TAR
                  periods at NSSA, the lack of a TAR control provided no reasonable assurance that
                  amounts reported on the SBR line, “Undelivered Orders–Obligations, Unpaid,”
                  represented by U.S. Standard General Ledger account 4801, were accurate and
                  supported.     Misstated amounts reported on this line will affect the accuracy of
                  future periods because the 4801 account does not close at year-end. ASN(FM&C)
                  should implement a quality assurance review program that will evaluate the
                  effectiveness for the Triannual Review process and the validity and sufficiency of
                  supporting documentation in accordance with the Deputy Chief Financial Officer,
                  Office of the Under Secretary of Defense February 28, 2013, memorandum.


                  Management Actions
                  Since we began this audit, NSSA obtained supporting documentation and deobligated
                  17 ULOs, valued at $4.8 million, of the 75 ULOs reviewed. As a result of the audit,
                  seven ULOs, valued at $1.2 million, were deobligated. As a result of the TAR, the
                  remaining ten ULOs, valued at $3.6 million, were deobligated but reported as
                  valid on the TAR confirmations statements.


                  Management Comments on the Finding and
                  Our Response
                  Management Comments on Norfolk Ship Support Activity Deputy
                  Comptroller Title Used
                  The Commander, U.S. Fleet Forces Command, suggested changing the title, “Norfolk
                  Ship Support Activity Deputy Comptroller.”   The Secretary of the Navy Instruction
                  7000.27b, states the Comptroller title is reserved for activities that hold
                  1517 Statute Authority.     The Norfolk Ship Support Activity does not currently
                  hold 1517 Authority. Therefore, the title of Norfolk Ship Support Activity Deputy
                  Comptroller should be changed to Norfolk Ship Support Activity Financial
                  Management Officer. The commander also suggested changing “She was unaware of
                  reporting exceptions with the confirmation statement when stakeholders were
                  unresponsive and a thorough review of unliquidated obligations was not performed
                  during the Triannual periods” to, “Norfolk Ship Support Activity personnel were
                  unaware of their ability to report exceptions with the confirmation statement when
                  stakeholders were unresponsive and a thorough review of unliquidated obligations
                  was not performed during the Triannual Review periods.”



10 │ Report No. DODIG-2014-070
                                                                                                  Finding



Our Response
As a result of management comments, we revised the report to say, “Norfolk Ship
Support Activity Financial Management Officer.” We also revised the report to say,
“Norfolk Ship Support Activity personnel were unaware of their ability to report
exceptions with the confirmation statement when stakeholders were unresponsive
and a thorough review of unliquidated obligations was not performed during the
Triannual Review periods.”


Management Comments on Authority
The Commander, Naval Sea Systems Command, agreed with the finding in principle
and provided the following comments on the finding. He asked that we consider that
the Norfolk Ship Support Activity Financial Department does not have the authority
to deobligate funds based on lack of response or inadequate responses from external
stakeholders. The Norfolk Ship Support Activity Financial Department relies on current
information provided by external stakeholders to validate unliquidated obligations
and does not have the authority to force external stakeholders to comply with the
Triannual Review process.     In addition, the two-week timeframe to complete the
Triannual Review was not adequate to contact the appropriate personnel for validation
and that it affects U.S. Fleet Material and Combat Readiness on a global scale. He added
that the Norfolk Ship Support Activity Financial Department cannot set aside the
day-to-day operational requirements to focus its priority on the Triannual Review.


Our Response
We agree with the commander’s position that the Norfolk Ship Support Activity
Financial Department does not have the authority to deobligate funds based on lack
of response or inadequate responses from external stakeholders.          We identified
57 unliquidated obligations for which we could not determine the validity based on the
supporting documentation and recommended the Norfolk Ship Support Activity perform
further research into these items. We do not recommend deobligation of unliquidated
obligations without documentation, such as contract modifications.

The 14 working day timeframe is required by DoD FMR volume 3, chapter 8,
“Standards for Recording and Reviewing Commitments and Obligations.” Norfolk Ship
Support Activity personnel explained that they continuously reviewed unliquidated
obligations. However, the results of the audit did not support this, and they did not
provide documentation of communication supporting the validity of the unliquidated
obligations at different times throughout the fiscal year that demonstrated an
ongoing review. The Deputy Chief Financial Officer, Office of the Under Secretary



                                                                              Report No. DODIG-2014-070 │ 11
Finding



                  of Defense, “Accounting Policy Update for Triannual Review of Obligations and
                  Unfilled Orders,” February 28, 2013, states that financial reports did not reflect the
                  status of obligations because Triannual Reviews were not completed or documented.
                  Ongoing, close collaboration is encouraged by the Deputy Chief Financial Officer
                  to improve the accuracy of reported obligation amounts and would improve the
                  ability to accomplish the review within the specified timeframe.


                  Recommendations, Management Comments, and
                  Our Response
                  Revised Recommendations
                  As a result of management comments, we revised Recommendations 2.a and 2.b to
                  clarify the nature of the actions needed to improve performance of the Triannual
                  Review and address personnel who do not respond to the Triannual Review requests.


                  Recommendation 1
                  We recommend that the Assistant Secretary of the Navy (Financial Management
                  and Comptroller):

                                 a.	 Develop procedures, in conjunction with the U.S. Fleet Forces
                                    Command and other subordinate commands, to address
                                    the lack of response and support provided by Norfolk Ship
                                    Support Activity’s stakeholders in responding to Triannual
                                    Review requests.

                  Assistant Secretary of the Navy (Financial Management and
                  Comptroller) Comments
                  The Director, Program/Budget Coordination Division, responding for the Assistant
                  Secretary of the Navy (Financial Management and Comptroller), stated that this
                  recommendation will not significantly improve the response or support provided
                  by non‑Navy organizations because the majority of stakeholders, such as Defense
                  Contract Audit Agency, Defense Contract Management Agency, other Government
                  agencies, and contractors, are outside of the Department of the Navy. In addition,
                  she stated the Department of Navy, Department of Army, and Air Force fund holders
                  have identified Defense Contract Audit Agency and Defense Contract Management
                  Agency as the least responsive to their requests for documentation. Therefore, the
                  director proposed that the Office of the Under Secretary of Defense (Comptroller), the




12 │ Report No. DODIG-2014-070
                                                                                                  Finding



Triannual Review process owner, develop procedures and support training.            The
revised procedures could be promulgated to the entire DoD financial community
through DoD FMR updates.


Our Response
The   Director,    Program/Budget    Coordination    Division,   responding   for    the
Assistant Secretary of the Navy (Financial Management and Comptroller), did
not address the specifics of the recommendation.        We agree that the Assistant
Secretary of the Navy (Financial Management and Comptroller) does not have the
authority to address the lack of response and support provided by non-Navy
organizations.    However, the majority of the sample items we reviewed included
stakeholders within the Department of Navy. During the audit we found that 42 of the 52
stakeholders that did not respond were from Navy activities.        The Norfolk Ship
Support Activity contract department did not respond to Triannual Review requests
for 24 of the  75 unliquidated obligations and other Navy activities did not respond
to 18 of 75 unliquidated obligations.  The documentation for the only two
unliquidated obligations that were fully supported and valid was obtained from a
non-DoD agency.      The responsibility to direct and manage the financial activities,
such as overseeing the management of the annual budget and supporting processes is
part of the Assistant Secretary of the Navy (Financial Management and Comptroller)
mission statement.    Therefore, to continue to carry out its mission, it is vital for
the Office of the Assistant Secretary of the Navy (Financial Management and
Comptroller) to develop procedures for all stakeholders to respond to the
Triannual Review requests. We request that the director reconsider her position on the
recommendation and provide comments on the final report.

             b.	 Provide training to validate and support the Triannual Review to all
                  personnel responsible for providing input to the Triannual Review,
                  to include what constitutes sufficient source documentation and
                  retention steps.

Assistant Secretary of the Navy (Financial Management and
Comptroller) Comments
The Director, Program/Budget Coordination Division, responding for the Assistant
Secretary of the Navy (Financial Management and Comptroller), did not address
the specifics of this recommendation.        She stated that the Office of Budget
[Office of Assistance Secretary of the Navy (Financial Management and Comptroller)]
website is available to all personnel responsible for providing input for Department
of Navy’s Triannual Review and provides links to relevant DoD FMR citations, policy



                                                                              Report No. DODIG-2014-070 │ 13
Finding



                  memorandums, and data files.  In addition she said that because the “sufficient
                  source document and retention steps” are in the DoD FMR, which is the authoritative
                  source for source documents and retention requirements this recommendation
                  is duplicative to the DoD FMR requirements and unnecessary. Further, she stated
                  that the Department of Navy believes it is more appropriate for the Office of the
                  Under Secretary of Defense (Comptroller) to initiate additional, targeted, training
                  requirements and promulgate updates to the DoD FMR to the entire DoD financial
                  community because it is the Triannual Review process owner.


                  Our Response
                  Comments from the Director, Program/Budget Coordination Division, did not
                  address the specifics of the recommendation and we do not agree that this
                  recommendation is duplicative of the DoD FMR.  We are not recommending
                  that the Assistant Secretary develop policy; rather we are recommending that the
                  Assistant Secretary deliver specific training to Department of the Navy financial
                  and     non-financial   management     stakeholders     responsible    for   collaboration
                  on completing the Triannual Reviews to improve the accuracy and validity of
                  reported obligation amounts.  The Office of the Assistant Secretary of the Navy
                  (Financial Management and Comptroller) is responsible for Department of the
                  Navy financial management matters and allocation of all appropriations and funds
                  available to the Department of the Navy.  It approves and supervises financial
                  management throughout the Department of the Navy for appropriated, non-
                  appropriated and special funds.       Furthermore, it provides guidance and directs
                  and coordinates the education, training, and career development of Department
                  of the Navy financial management personnel.  Therefore, it is appropriate and
                  necessary for the Assistant Secretary of the Navy (Financial Management and
                  Comptroller) to mandate and provide training on what constitutes sufficient
                  source documentation and retention steps based on the DoD FMR and best
                  practices to subordinate activities. We request the director reconsider her position on the
                  recommendation and provide comments on the final report.

                                 c.	 Implement a quality assurance review program that will
                                    evaluate the effectiveness for the Triannual Review process
                                    and the validity and sufficiency of supporting documentation in
                                    accordance with the Deputy Chief Financial Officer, Office of the
                                    Under Secretary of Defense February 28, 2013, memorandum.




14 │ Report No. DODIG-2014-070
                                                                                                Finding



Assistant Secretary of the Navy (Financial Management and
Comptroller) Comments
The Director, Program/Budget Coordination Division, responding for the Assistant
Secretary of the Navy (Financial Management and Comptroller), stated that the
Office of Budget and Financial Management Office have been proactive recently in
reviewing the DoD Triannual Review inputs for unfilled customer orders. The Office
of Budget will work with BSO (Echelon III) comptrollers to expand the analysis of
Triannual Review inputs to implement qualitative and quantitative checks in each
reported area across all BSOs in the Department of Navy. Furthermore, at least once
during the reporting year, each BSO will randomly spot check for two subordinate
command (Echelon IV or below) inputs. This spot check will review one percent
sampling of the records or documents reported by the subordinate commands
during the reporting year.     BSOs will alert the Office of Budget on any identified
irregularities during the review.


Our Response
Comments from the Director, Program/Budget Coordination Division, addressed all
specifics of the recommendation, and no further comments are required.


Recommendation 2
We recommend the Commander, U.S. Fleet Forces Command:

             a.	 Perform quality assurance reviews developed by Office of
                 Assistant Secretary of the Navy (Financial Management and
                 Comptroller) (Office of Budget) that independently validates
                 that subordinate activities are performing the Triannual Review.

             b.	 Notify appropriate Commanding Officers when personnel at
                 subordinate or external activities do not respond to Triannual
                 Review requests and notify Executive Directors of subordinate
                 activities of their failure to properly submit their Triannual
                 Review or inaccurately certifying the confirmation statement.

Recommendation 3
We recommend that the Executive Director, Norfolk Ship Support Activity:

             a.	 Review the 54 unliquidated obligations listed in Appendix B
                 and determine whether funds should be deobligated.




                                                                            Report No. DODIG-2014-070 │ 15
Finding



                  Commander, Naval Sea Systems Command Comments
                  The Commander, Naval Sea Systems Command, agreed on behalf of the Executive
                  Director Norfolk Ship Support Activity.        The Acting Norfolk Ship Support Activity
                  Comptroller issued a memorandum directing budget execution and ship repair
                  managers to review the 54 ULOs listed in Appendix B and determine whether funds
                  should be deobligated. The estimated completion date is June 19, 2014.


                  Our Response
                  We consider the Commander’s comments responsive.  No further comments
                  were required.

                                  b.	 Develop and implement procedures to gather and maintain
                                     supporting    documentation      for   the   Triannual   Review   for
                                     24 months as required by DoD Financial Management Regulation
                                     volume 3, chapter 8, “Standards for Recording and Reviewing
                                     Commitments and Obligations.”

                  Commander, Naval Sea Systems Command Comments
                  The Commander, Naval Sea Systems Command, agreed on behalf of the Executive
                  Director Norfolk Ship Support Activity.        The Acting Norfolk Ship Support Activity
                  Comptroller issued a memorandum directing Budget Execution and Ship Repair
                  Managers to develop a process to gather and maintain supporting documentation for
                  the Triannual Review that complies with DoD FMR volume 3, chapter 8, “Standards
                  for Recording and Reviewing Commitments and Obligations.” The budget execution
                  and ship repair managers will provide the process to management for review and
                  validation. The estimated completion date is June 19, 2014.


                  Our Response
                  We consider the Commander’s comments responsive.                 No further comments
                  are required.

                                  c.	 Annotate    unliquidated     obligations    not   reviewed   during
                                     the Triannual Review on the confirmation statement when
                                     returning it to U.S. Fleet Forces Command and notify the chain of
                                     command when personnel do not respond to the data requests.




16 │ Report No. DODIG-2014-070
                                                                                                 Finding



Commander, Naval Sea Systems Command Comments
The Commander, Naval Sea Systems Command, agreed on behalf of the Executive Director
Norfolk Ship Support Activity. On February 25, 2014, the Norfolk Ship Support Activity
developed a Triannual Review Response, which segregated the responses into three
categories: unliquidated obligations with some exceptions, incomplete information, and
inadequate or no responses.


Our Response
We consider the Acting Norfolk Ship Support Activity Comptroller’s comments
responsive. No further comments are required.




                                                                             Report No. DODIG-2014-070 │ 17
Appendixes




                  Appendix A
                  Scope and Methodology
                  We conducted this performance audit from June 2013 through March 2014
                  in accordance with generally accepted government auditing standards.  Those
                  standards require that we plan and perform the audit to obtain sufficient,
                  appropriate evidence to provide a reasonable basis for our findings and conclusions
                  based on our audit objectives.        We believe that the evidence obtained provides a
                  reasonable basis for our findings and conclusions based on our audit objectives.

                  To accomplish the audit objectives, we met with the following offices and reviewed
                  the following data:

                             •	 We communicated with the Office of the Under Secretary of Defense
                                 (Comptroller),   and   ASN(FM&C)      Office     of   Budget,   Program/Budget
                                 Coordination Division, and Office of Financial Operations, Accounting
                                 and Financial Practices and Reporting Division, and visited the
                                 U.S. Naval Base offices of USFFC and NSSA in Norfolk, Virginia, to
                                 identify the policies and procedures in place for management controls
                                 over ULOs, interview personnel involved in the TAR process, and validate
                                 the 75 nonstatistically selected ULO balances.

                             •	 We reviewed supporting documentation and files used by NSSA to
                                 conduct the January and May 2013 TARs to determine whether ULOs
                                 certified by NSSA during the review process were accurate. We determined
                                 ULOs were invalid if NSSA provided documentation that supported
                                 the value reported on the TAR was incorrect, there was no longer
                                 a need for the ULO, or STARS did not reflect the recapture of the ULO.

                             •	 We reviewed applicable laws and regulations, including DoD FMR
                                 volume 3, chapter 8 and Navy TAR policy, to determine the procedures for
                                 performing TARs and to identify supporting documentation requirements.

                             •	 We interviewed financial, budget, technical, and contract personnel to
                                 understand their roles and responsibilities in the TAR process.          Invalid
                                 ULOs were often identified through interviews with personnel responsible
                                 for or key to the sample ULOs.

                             •	 For items reviewed, we used STARS and Electronic Document Access
                                 to verify the ULO status and obtain contractual documents and
                                 modifications related to our nonstatistical sample.


18 │ Report No. DODIG-2014-070
                                                                                            Appendixes



The TAR review for the periods ending January and May 2013 contained 3,416 ULOs:

         •	 NSSA’s TAR for the period ending January 31, 2013, consisted of 358 Direct
           and Reimbursable ULOs, valued at $93.7 million, from FY 2007 through
           FY 2012 that were equal to or greater than $50,000 and 120-days dormant.

         •	 The TAR for the period ending May 31, 2013, consisted of 3,058  Direct
           and Reimbursable ULOs valued at $91.4 million FY 2007 through FY 2013
           which were greater than $.01 and 120-days dormant.

From the 3,416 ULOs, we excluded:

         •	 FY 2007, because FY 2007 funds were already canceled,

         •	 FY 2008, because funds would be canceled before we would end this audit,

         •	 FY 2013, because “newly” obligated contracts potentially do not have
           activity for up to 18 months.

After excluding ULOs for these three fiscal years, our universe of the ULOs from
January  and May  2013 totaled 2,488  ULOs, valued at  $145.7 million. We focused
our review on high-dollar direct and reimbursable ULOs from the January and
May 2013 TARs, used criteria from DoD FMR, volume 3, chapter 8, and nonstatistically
selected a sample of 75 ULOs valued at $33 million from direct and reimbursable ULOs.


Use of Computer-Processed Data
We used computer-processed data to perform this audit. USFFC used the Command
Financial Management System to extract data that originated in STARS.  The
Command Financial Management System produced the list of ULOs from which
we selected our test sample. To determine if the data was reliable and complete,
we reconciled the list of ULOs from the Command Financial Management System
to the Department of Navy Triannual Review template.            We also interviewed
USFFC personnel knowledgeable about the data.        Furthermore, we compared the
ULO balances from the list obtained from the Command Financial Management
System to STARS.     We determined no differences existed and obtained sufficient
understanding of the data.  As a result, the data is sufficiently reliable for the
purposes of this report.




                                                                             Report No. DODIG-2014-070 │ 19
Appendixes



                  Use of Technical Assistance
                  The DoD Office of Inspector General Quantitative Methods Division advised us on
                  the nonstatistical sampling plan and the presentation of data in the report.


                  Prior Coverage
                  During the last 5  years, the Department of Defense Inspector General (DoD IG) issued
                  four reports discussing the obligation of funds for ship maintenance and repair.
                  Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/pubs/index.cfm.


                  DoD IG
                  Report No. DODIG-2012-062 “Contractor-Invoice Costs Were Accurate, but DoD Did
                  Not Adequately Track Funding,” March 8, 2012

                  Report No. D-2010-087 “Weaknesses in Oversight of Naval Sea System Command
                  Ship Maintenance Contract in Southwest Asia,” September 27, 2010

                  Report No. D-2009-025 “Obligation of Funds for Ship Maintenance and Repair at the
                  U.S. Pacific Fleet Maintenance Activities,” November 26, 2008

                  Report No. D-2008-083 “Obligation of Funds for Ship Maintenance and Repair at the
                  U.S. Fleet Forces Command Regional Maintenance Centers,” April 25, 2008




20 │ Report No. DODIG-2014-070
                                                                                      Appendixes




Appendix B
Unliquidated Obligations With Unknown Validity
 Standard Document                   Days Elapsed as of
                      ULO Amount                          Sample Item Number
      Number                                TAR
N5005411MD7JC01      $2,204,653.07           228                  18
N5005412MPL0020       2,000,000.00           127                   7
N5005412MPMSG14       2,000,000.00           250                  19
N5005412MPMSG04       1,000,000.00           306                  20
N5005412WRL0257        993,884.03            127                   3
N5005410MDM0127        980,991.26            236                  21
N4002509MDM0147        949,841.12            482                  22
N5005411MDM0039        874,966.05            236                  23
N5005410MDM0047        842,337.61            480                  25
N5005411MDM0056        779,005.76            236                  26
N4002509MDM0040        710,738.52            482                  27
N5005411MDJ0001        555,960.07            300                  28
N5005411RCX0310        550,000.00            617                   2
N5005410RCBA322        546,487.00            900                  30
N5005410MDM0100        523,171.46            592                  31
N4002509MDM0092        508,518.51            573                  32
N5005412MPRSG04        500,000.00            155                  12
N5005411RCX0095        468,580.00            305                  33
N5005410MDM0042        463,443.49            213                  34
N5005411RCX0475        450,000.00            627                  36
N4002509MD6A103        449,796.97            208                  37
N5005410MDM0008        437,954.72            480                  38
N5005411MDM0225        436,614.35            853                  35
N5005411MDM0042        428,421.00            271                  39
N4002509MDM0114        409,196.37            145                  40
N5005412RCX0028        400,000.00            252                  41
N5005410MDM0195        331,486.00            377                  42
N5005410MDM0028        316,812.62            263                  43
N5005411RCX0380        275,000.00            697                  44
N5005411MDM0088        256,114.49            263                  45




                                                                       Report No. DODIG-2014-070 │ 21
Appendixes




                  Unliquidated Obligations With Unknown
                  Validity (cont’d)
                     Standard Document                 Days Elapsed as of
                                         ULO Amount                         Sample Item Number
                          Number                              TAR
                    N4002509MD6HC15       221,096.78           529                  46
                    N5005411RCX0473       221,000.00           625                  47
                    N5005410MDM0087       209,401.30           573                  48
                    N4002511RCMPT09       200,300.00           682                  49
                    N5005410MDM0005       195,072.30           573                  50
                    N4002509MDM0055       164,013.75           805                  51
                    N4002509MDM0073       139,303.95           818                  53
                    N5005412MPL0010       138,000.00           185                   9
                    N4002509MDM0029       123,451.10           818                  54
                    N4002509MD4U008       118,580.77         1088                   55
                    N5005410MDM0198       101,887.56           263                  56
                    N4002509CSNA003        84,900.69         1083                   58
                    N5005410CSNA001        77,504.82           247                  59
                    N4002509MDM0038        66,271.63           482                  63
                    N4002509CSNA002        62,223.22         1512                   64
                    N5005411WRBA177        61,100.50           493                   5
                    N5005410RCMJW31        57,736.58           312                  65
                    N4002512640197         55,386.00           620                  67
                    N5005411MD6A181        55,001.76           620                  66
                    N4002511RCMPT25        50,000.00           305                  70
                    N5005410RCMMG26        24,297.12           173                  71
                    N4002509RCJB283        22,000.00         1452                   72
                    N5005410RCMCW41        18,776.80           682                  73
                    N4002509RCX0074         7,703.96         1496                   75




22 │ Report No. DODIG-2014-070
                                                   Management Comments




Management Comments
Assistant Secretary of the Navy (Financial Management
and Comptroller) Comments
Assistant Inspector General (Financial Management and              Final Report
Reporting) Comments                                                 Reference




                 Click to add JPEG file




                                                   Report No. DODIG-2014-070 │ 23
Management Comments



                  Assistant Secretary of the Navy (Financial Management
                  Assistant
                  and       Inspector Comments
                      Comptroller)    General (Financial
                                                 (cont’d)Management and   Final Report
                   Reporting) Comments (cont'd)                            Reference




                                    Click to add JPEG file




24 │ Report No. DODIG-2014-070
                                               Management Comments



Assistant Secretary of the Navy (Financial Management
Assistant
and       InspectorComments
    Comptroller)   General (Financial
                              (cont’d)Management and           Final Report
Reporting) Comments (cont'd)                                    Reference




                 Click to add JPEG file




                                               Report No. DODIG-2014-070 │ 25
Management Comments



                 U.S. Fleet Forces Command Comments
                  Commander, U.S. Fleet Forces Command    Final Report
                                                           Reference
                  Comments




                                 Click to add JPEG file




26 │ Report No. DODIG-2014-070
                                              Management Comments

U.S. Fleet Forces Command Comments (cont'd)              Final Report
                                                          Reference
 Commander, U.S. Fleet Forces Command             Final Report
                                                  Reference
 Comments (cont’d)




                 Click to add JPEG file



                                                      Revised
                                                      Recommendation 2a

                                                  Revised
                                                  Recommendation 2a



                                                      Revised
                                                      Recommendation 2b




                                              Report No. DODIG-2014-070 │ 27
Management Comments


              U.S. Fleet Forces Command Comments (cont'd)
                  Commander, U.S. Fleet Forces Command             Final Report
                                                            Final Report
                                                                  Reference
                                                            Reference
                  Comments (cont’d)


                                                            Revised
                                                            Recommendation 2b




                                 Click to add JPEG file




28 │ Report No. DODIG-2014-070
                                        Management Comments


Naval Sea Systems Command Comments                      Final Report
Commander, Naval Sea Systems Command
                                                         Reference
Comments




               Click to add JPEG file




                                        Report No. DODIG-2014-070 │ 29
Management Comments



                 Naval Sea Systems Command Comments (cont'd)
                  Commander, Naval Sea Systems Command         Final Report
                                                               Reference
                  Comments (cont’d)




                                 Click to add JPEG file




30 │ Report No. DODIG-2014-070
                                              Management Comments



Naval Sea Systems Command Comments (cont'd)
Commander, Naval Sea Systems Command                           Final Report
                                                               Reference
Comments (cont’d)




                Click to add JPEG file




                                              Report No. DODIG-2014-070 │ 31
Management Comments


                Naval Sea Systems Command Comments (cont'd)   Final Report
                  Commander, Naval Sea Systems Command        Reference
                  Comments (cont’d)




                                 Click to add JPEG file




32 │ Report No. DODIG-2014-070
                                              Management Comments



Naval Sea Systems Command Comments (cont'd)
Commander, Naval Sea Systems Command                           Final Report
                                                               Reference
Comments (cont’d)




                Click to add JPEG file




                                              Report No. DODIG-2014-070 │ 33
Management Comments



                 Naval Sea Systems Command Comments (cont'd)
                  Commander, Naval Sea Systems Command         Final Report
                                                               Reference
                  Comments (cont’d)




                                 Click to add JPEG file




34 │ Report No. DODIG-2014-070
                                                                             Acronyms and Abbreviations




Acronyms and Abbreviations
ASN(FM&C) Assistant Secretary of the Navy (Financial Management and Comptroller)
       BSO Budget Submitting Office
      FMR Financial Management Regulation
      NSSA Norfolk Ship Support Activity
       SBR Statement of Budgetary Resources
     STARS Standard Accounting and Reporting System
       TAR Triannual Review
       ULO Unliquidated Obligation
     USFFC U.S. Fleet Forces Command




                                                                                   Report No. DODIG-2014-070 │ 35
           Whistleblower Protection
          U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD
Hotline Director. For more information on your rights and
remedies against retaliation, go to the Whistleblower webpage at
             www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               Congressional@dodig.mil; 703.604.8324

                            Media Contact
               Public.Affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                      Reports Mailing List
                    dodig_report@listserve.com

                              Twitter
                        twitter.com/DoD_IG

                          DoD Hotline
                         dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
